   AUDIT REPORT
U.S. Fish and Wildlife Service
 Federal Assistance Grants
Administered by the American
     Samoa Government,
 Department of Marine and
  Wildlife Resources, from
  October 1, 2001, through
     September 30, 2003




  Report No. R-GR-FWS-0013-2004

                      March 2005
                United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                        External Audits
                              12030 Sunrise Valley Drive, Suite 230
                                     Reston, Virginia 20191
                                                                                   March 31, 2005


                                    AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Andrew Fedak
           Director of External Audits

Subject:   Final Audit Report on the U.S. Fish and Wildlife Service Federal Assistance Grants
           Administered by the American Samoa Government, Department of Marine and
           Wildlife Resources, from October 1, 2001, through September 30, 2003
           (No. R-GR-FWS-0013-2004)


        This report presents the results of our audit of costs incurred by the American Samoa
Government (Samoa), Department of Marine and Wildlife Resources (Department), under its
Federal Assistance grants from the U.S. Fish and Wildlife Service (FWS). The audit included
costs totaling approximately $2.9 million on FWS grants that were open during Samoa’s fiscal
years ended September 30, 2002 and 2003 (see Appendix l). The audit also covered the
Department’s compliance with certain laws, regulations, and FWS guidelines.

        We questioned costs totaling about $266,000 for excess drawdowns; unsupported,
unallocable, unnecessary, or unreasonable salaries, purchases, and services; unsupported or
unallocable travel costs; and unapproved indirect costs. We also identified compliance issues
related to the accounting system and associated internal controls, project level accounting, asset
management, and indirect costs. In addition, we identified two other matters related to project
cost reporting and timing of equipment purchases. We previously reported three of the four
compliance findings and the two other matters in our September 1999 audit report. We found
that the conditions that caused the findings still existed during fiscal years 2002 and 2003.

       The Department responded to a draft of this report on November 12, 2004, and the FWS
responded on March 11, 2005. We summarized the FWS and Department responses after the
recommendations and added our comments on the responses. The status of the recommendations
is summarized in Appendix 3.
        In accordance with the Departmental Manual (361 DM 1), please provide us with your
written response to the recommendations included in this report by July 1, 2005. Your response
should include the information requested in Appendix 3. If you have any questions regarding
this report, please contact me at (703) 487-5345 or Mr. Robert Leonard, Audit Team Leader at
(916) 978-5646.

cc:    Regional Director, Region 1
        U.S. Fish and Wildlife Service




                                             2
                                              Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts)1 authorize the U.S. Fish and Wildlife Service (FWS) to provide Federal Assistance
grants to states and territories to enhance their sport fish and wildlife programs. The Acts
provide for FWS to reimburse the states up to 75 percent and the territories up to 100 percent of
the eligible costs incurred under the grants. They also specify that state and territory hunting and
fishing license revenues cannot be used for any purpose other than the administration of the
state’s or the territory’s fish and game agency.2

Scope, Objective, and Methodology
We performed our audit at the American Samoa Government (Samoa), Department of Marine
and Wildlife Resources (Department) offices in Fagatogo, American Samoa. The audit work at
the Department included claims that totaled approximately $2.9 million on FWS grants that were
open during Samoa’s fiscal years ended September 30, 2002 and 2003 (see Appendix 1). The
objective of our audit was to evaluate:

             ¾ the adequacy of the Department’s accounting system and related internal controls;
             ¾ the accuracy and eligibility of the direct and indirect costs claimed under the
               Federal Assistance grant agreements with FWS;
             ¾ the adequacy of the Department’s asset management system and related internal
               controls with regard to purchasing, maintenance, control, and disposal; and
             ¾ the adequacy of the Department’s compliance with the Acts’ assent legislation
               requirements.

We performed our audit in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures that were considered necessary under the circumstances. Our tests
included an examination of evidence supporting selected expenditures charged by the
Department to the grants and interviews with employees to ensure that personnel costs charged
to the grants were supportable. We did not evaluate the economy, efficiency, or effectiveness of
the Department’s operations.




1
  As amended 16 U.S.C. § 669 and 16 U.S.C. § 777
2
  The American Samoa Government’s Department of Marine and Wildlife Resources does not sell any hunting or
fishing licenses. As a result, we did not need to address the issue of whether license revenues were used for program
purposes.


                                                       3
Prior Audit Coverage
On September 22, 1999, we issued audit report No. 99-E-925, “U.S. Fish and Wildlife Service
Federal Aid Grants to the American Samoa Government, Department of Marine and Wildlife
Resources, for Fiscal Years ended September 30, 1996 and 1997.” We reviewed this report and
followed up on all significant findings to determine whether they had been resolved prior to our
review. We determined that five of the previously reported issues had not yet been resolved.
Our findings related to these issues are discussed in the Results of Audit section of this report.
These issues involved the project cost reporting (project level accounting, see Finding E),
accounting system and related internal controls (see Finding F), asset management (see Finding
G), indirect costs (see Finding H), and timing of equipment purchases (see Finding I).




                                               4
                                    Results of Audit
Our review found that Samoa had adequate assent legislation in place that prohibited the use of
license fees for any purpose other than the administration of the Department.

However, our audit identified questioned costs of $265,749 as follows:

       A.      Excessive drawdowns of $19,574.
       B.      Unsupported, unallocable, unnecessary, or unreasonable costs for salaries,
               purchases, and services of $177,084.
       C.      Unsupported or unallocable travel costs of $55,192.
       D.      Unapproved indirect costs of $13,899.

Additionally, we found compliance issues related to:

       E.      Project level accounting.
       F.      The accounting system and related internal controls.
       G.      Asset management.
       H.      Indirect costs.
       I.      Other matters related to project cost reporting and timing of equipment purchases.


Questioned Costs
We questioned costs totaling $265,749 because the Department made excessive drawdowns and
could not provide support for some salaries, purchases, services, travel, and indirect costs. These
findings are discussed in the following paragraphs.

A. Excessive Drawdowns

The Department’s drawdowns reported on the SF-269 financial status reports (claimed costs)
exceeded the costs recorded in the Department of Treasury’s (Treasury) accounting system for
four grants. The drawdowns made by the Treasury should have been based on and supported by
incurred costs, as required by the Service Manual (522 FW 1.10). As shown in the following
schedule, the Department claimed a total of $19,574 more than the costs recorded in the
Treasury’s accounting system.




                                               5
    Grant                                          Claimed       Treasury’s
   Number                   Name                    Costs         Records         Difference
 FW-1-C-16        Coordination                      $264,639         $257,528           $7,111
 W-1-R-18         Wildlife Investigations            306,265          300,251            6,014
 F-2-R-27         Fisheries Investigations           286,436          281,239            5,197
 F-10-E-1         Aquatic Education                   67,524           66,272            1,252
    Total                                           $924,864         $905,290         $19,574

The Treasury’s Grants Division employees were responsible for comparing all of the annual
Federal grant reports from grantees with the Treasury’s accounting records to ensure accuracy.
The Grants Division employees were supposed to stamp the reports with the Treasury’s
confirmation stamp before submitting the reports to the grantor agencies. Our review indicated
that the Treasury employees did certify the financial status reports for the grants listed in the
table above. However, this process may have been undermined by transfers of various costs to
and from other grant accounts subsequent to submission of the financial status reports to FWS,
which resulted in the excessive drawdowns noted above. The Department’s Administrator told
us that various cost transfers after the financial status reports were submitted to FWS have
contributed to the differences between the claimed costs shown on the reports and the actual
costs shown in the Treasury’s records.

       Recommendation
       We recommend that the FWS resolve the issue of excessive drawdowns in the amount of
       $19,574.

       Department Response

       The Department agreed that the drawdowns exceeded costs in the Treasury’s accounting
       system report for the four grants. The Department stated that the costs in its accounting
       system supported the drawdowns and submitted a request to Samoa’s Treasury to transfer
       expenditures to the four grants so that their records would reconcile.

       FWS Response
       The FWS stated that it did not review the documentation submitted by the Department
       that but it agreed with our finding.

       OIG Comments

       The request for transfer of funds by the Department to the projects with excessive
       drawdowns is not sufficient support to resolve the questioned costs. Based on the FWS
       response, and our review of documentation submitted by the Department, we consider
       this matter unresolved and the recommendation not implemented.


                                               6
B. Salaries, Purchases, and Services
The Department charged costs identified as salaries, purchases, and services to the grants that
were not supported by source documentation, not properly allocable to the grants, unreasonable,
or unnecessary. As summarized in the following schedule, we questioned costs of $177,084.
(See Appendix 2 for details and the specific reasons we questioned each of the costs claimed.)


                                                                           Questioned
             Grant Number                         Name                       Costs
             F-4-B-6                 O & M Boating                            $88,662
             FW-1-C-16               Coordination                              47,390
             F-2-R-25                Fisheries Investigations                    8,787
             F-2-R-26                Fisheries Investigations                    4,465
             W-1-R-18                Wildlife Investigations                     8,250
             W-1-R-17                Wildlife Investigations                     6,968
             F-2-R-27                Fisheries Investigations                    8,151
             FW-1-C-15               Coordination                                3,611
             FW-2-E-13               Aquatic/Wildlife Education                    800
               Total                                                         $177,084



Title 50 CFR § 80.15 of the Code of Federal Regulations states that allowable costs are limited to
those which are necessary and reasonable for accomplishment of approved project purposes and
are in accordance with the cost principles of OMB Circular A–87. It also states that all costs
must be supported by source documents or other records as necessary to substantiate the
application of funds.

OMB Circular A-87, Attachment A, item C.3.a. states, “A cost is allocable to a particular cost
objective if the goods or services involved are chargeable or assignable to such a cost objective
in accordance with relative benefits received.”

We believe these conditions occurred because the Department did not properly manage and
control its grants. The Treasury performed oversight and advisory functions and provided the
Department with monthly financial reports. The Department’s Administrator was responsible for
monitoring the reports, reconciling these reports to Departmental records, and correcting all
mistakes. In addition, Program Directors were responsible for ensuring that grant funds were
spent in compliance with grant terms. However, Program Directors did not review and approve
charges to the grants because the Administrator did not provide them with copies of the reports.
Without these reports, the Program Directors were unable to carry out their responsibilities. As a
result, salaries, purchases, and services charged to the grants were overstated by $177,084.




                                               7
       Recommendations
       We recommend that the FWS:

       1.      Resolve the $177,084 of salaries, purchases, and services costs that were either
               unsupported or not allocable to the grants.

       2.      Ensure that the Department implements a process to adequately monitor and
               reconcile the Treasury reports.

       Department Response
       The Department indicated that it generally agreed with $15,443 of the $177,084
       questioned but felt that a portion of the amount questioned should be charged to the grant
       or that the costs were legitimate even though they were incurred outside the grant period.
       The Department submitted documentation to support most of the remaining questioned
       costs.

       FWS Response
       The FWS agreed with our finding and stated that the Department must adequately
       identify and support the questioned costs.

       OIG Comments
       Our review of the documentation submitted by the Department found that the information
       was incomplete or not verifiable without additional documentation. For example, a
       handwritten Customer Order Form with a figure of $26,500 was submitted as support for
       the purchase of a vehicle. Although the FWS agreed with the finding, we consider it
       unresolved and the recommendations unimplemented based on the Department’s
       response and the documentation provided.

C. Travel Costs
Employee travel expense reports did not always contain sufficient documentation to support
claimed costs or contained costs that were not allocable to the Federal Assistance program.
Receipts for airline tickets, lodging, car rentals, registration fees, and sign-in sheets or
certifications of completion for training or meetings were often missing. In addition, some travel
costs were for travel unrelated to the grants charged. Many of these issues were addressed
previously in our September 1999 audit report. Despite the fact that the Department issued
appropriate criteria to correct the deficiencies, problems continued to persist. As summarized in
the following schedule, we questioned travel costs of $55,192. We are providing the details of
the questioned costs to the FWS under separate cover.




                                              8
                      Grant                                               Questioned
                     Number                         Name                    Costs
                 FW-1-C-15              Coordination                          $14,339
                 F-2-R-26               Fisheries Investigations               14,118
                 F-2-R-27               Fisheries Investigations                 8,321
                 FW-2-E-13              Aquatic/Wildlife Education               5,518
                 W-1-R-17               Wildlife Investigations                  4,736
                 FW-1-C-16              Coordination                             4,160
                 F-2-R-25               Fisheries Investigations                 4,000
                  TOTAL                                                       $55,192


Title CFR 50 §§ 80.15 and 80.19(a) require that all costs must be supported by source documents
or other records necessary to substantiate the application of funds. In addition, the Director of
the Department of Marine and Wildlife Resources’ April 12, 2002 memorandum3 discusses
travel expense reports and states that travelers “must provide original receipts for airline tickets,
hotel, car rental (if authorized in advance by the Director), meeting registration fees, and any
other reimbursable expenses.”

We believe that travel expense reports did not contain sufficient support for several reasons.
Primarily, Department officials were not enforcing the regulations or the Director’s
memorandum. As a result, many Department employees did not submit documentation to
support the claimed costs and to show that the trips were actually taken. However, without
copies of the airline receipts or boarding passes, lodging receipts, and rental car receipts there
was little, if any, documentation to corroborate the claims that the trips were actually taken and
the costs were incurred by the travelers. Employee travel expense reports should not be
approved unless accompanied by original receipts and other documentation to confirm that the
costs were actually incurred by the travelers. These requirements should be documented and
distributed to every traveler and potential traveler in the Department.

           Recommendations
           We recommend that the FWS:

           1.       Resolve the questioned travel costs of $55,192 that were either unsupported or
                    used for purposes unrelated to the grants under which they were claimed.

           2.       Require the Department to distribute a notification to all employees that
                    beginning immediately it will require all staff to provide receipts for travel and
                    lodging in order to obtain reimbursement.




3
    Policies and Procedures, Part V.2


                                                    9
         Department Response
         The Department stated that it did not dispute the report regarding questioned costs for
         travel but stated that “… it is our opinion that all travel listed under various grants were
         completed.” The Department also provided documentation as support for the travel
         expense reports.

         FWS Response
         The FWS concurred with the finding and recommendations.

         OIG Comments
         Most of the documentation submitted by the Department was comprised of trip
         itineraries, which are not sufficient documentation to resolve the questioned costs. Based
         on the documentation provided by the Department as support for the questioned travel
         costs, we consider the finding unresolved and the recommendation not implemented.

D. Indirect Costs
Indirect costs were charged to the fiscal year 2003 grants without an approved indirect cost rate.
Samoa was required to submit a certified indirect cost rate proposal for fiscal year 2003 as a
condition for seeking reimbursement of indirect costs under its Federal grants. Although Samoa
did not submit the required proposal, the Department claimed indirect costs using a rate of
3 percent of direct salaries and wages, as follows:

           Grant Number                            Name                      Indirect Costs
           FW-1-C-16                    Coordination                                 $4,540
           F-2-R-27                     Fisheries Investigations                      4,135
           W-1-R-18                     Wildlife Investigations                       3,871
           F-10-E-1                     Aquatic Education                               701
           F-4-B-7                      O&M Boating Access                              652
              TOTAL                                                                $13,899

OMB Circular A-87 “Cost Principles for State and Local Governments and Indian Tribal
Governments” requires government entities to prepare an indirect cost rate proposal that provides
a basis for allocating indirect costs to Federal programs. Samoa should have submitted its cost
allocation plan and indirect cost rate proposal4 to its cognizant Federal agency for approval
annually. Thus, no indirect costs should have been reimbursed unless Samoa or the Department
had an approved rate.

4
  Samoa is required to prepare a proposal on a prospective basis using actual financial data from prior years. Costs
included in the proposal must be properly allocable to Federal awards on the basis of a beneficial or causal
relationship between the expenses incurred and the agreements to which they are allocated in accordance with
applicable requirements. The indirect cost negotiation agreement for fiscal years 2000 through 2002 required that
within 6 months after year end, a final rate be submitted based on actual costs.


                                                       10
Samoa negotiated a fixed indirect cost rate for fiscal year 1999 and provisional indirect cost rates
for fiscal years 2000 through 2002. However, as of May 2004, Samoa had not negotiated an
indirect cost rate for fiscal year 2003. The Treasurer told us that the indirect cost rate for fiscal
year 2003 would be determined after the fiscal year 2001 Single Audit was completed.

Without an approved indirect cost rate, no indirect costs should have been charged to any of the
fiscal year 2003 grants. Accordingly, we questioned the $13,899 of indirect costs that were
claimed by the Department as shown in the table above.

       Recommendation
       We recommend that the FWS resolve the $13,899 of questioned indirect costs that were
       charged to the five grants identified above.

       Department Response

       The Department agreed that the indirect costs charged to the grants were without an
       approved indirect cost rate but stated that it believed that the 3 percent indirect cost
       claimed is required under the Federal Assistance grants.

       FWS Response
       The FWS agreed with finding and recommendation.

       OIG Comments

       The Department is not entitled to a 3 percent indirect cost rate as stated in its response.
       The Department apparently misinterpreted a provision of the Restoration Acts that place
       a restriction on the use of Federal Assistance funds. Specifically, the Acts require that a
       state may not use more than 3 percent of its annual apportionment of Federal Assistance
       funds for statewide central service costs. Although the FWS concurred with the finding
       and recommendation, it was not clear what actions would be taken. Therefore, we
       consider the finding unresolved and the recommendation not implemented.

       Our draft report contained a second recommendation that Samoa submit a final indirect
       cost rate proposal for fiscal years 2000 through 2002 and make any adjustments, as
       necessary, based on the final rate. Based on the FWS response to the draft report, we
       have not included the recommendation in the final report.




                                               11
Additional Findings
E. Project Level Accounting
The Department did not account for grant costs at the project level as required by three of its
fiscal year 2003 grants (aquatic education, fisheries investigations, and wildlife investigations).
For example, the wildlife investigations grant, W-1-R-18, was made up of eight separate project
components, each having a separate budget. Instead of reporting costs for each component so
that actual costs could be compared to budgeted costs, the Department accounted for and
reported costs only in total for the entire grant.

Title 43 CFR § 12.60 requires the Department to account for costs in a manner that would enable
FWS to compare actual project costs to budgeted project amounts contained in the grant
agreement. However, the Department did not have an internal recordkeeping system to
accumulate and track payroll and non-payroll costs at the project level. Although Department
employees recorded the amount of time they spent on individual projects on their daily activity
reports, the biweekly time cards that the Department submitted to Treasury’s Payroll Division
included only the number of hours employees worked on particular grants, not the number of
hours spent on the individual projects within each grant. Non-payroll costs were also
untraceable to grant projects. While we were able to determine which purchases were charged to
the individual grants, neither the Treasury nor the Department maintained any records indicating
for which grant projects the purchases were made.

As a result, the Department was unable to provide FWS with an accurate record of the total costs
of each project for the three grants that required project level accounting.

       Recommendation
       We recommend that the FWS require the Department to implement a cost accounting
       system that is sufficient to account for and report grant costs at the project level.

       Department and FWS Responses, and OIG Comments

       The Department did not address this finding. Therefore, although the FWS concurred
       with the finding and recommendation, we consider the finding unresolved and the
       recommendation not implemented.

F. Accounting System and Related Internal Controls
The September 1999 audit report stated that the Department (1) did not have policies and
procedures, as required by Title 43 CFR § 12.60, to identify, segregate, and remove unallowable,
unallocable, and ineligible costs from claims for reimbursement; (2) was not in compliance with
OMB Circular A-87, which required that fringe benefit costs be distributed on a basis that would
produce equitable results; and (3) was not in compliance with Title 50 CFR § 80.15, which
required that costs be supported by source documents or other records as necessary to


                                              12
substantiate the costs because it did not document the purpose for making cost transfers between
grants. The corrective action plan stated that the Department would prepare policies and
procedures for ineligible costs, fringe benefit distribution, and cost transfers. However, the
Department Director could not provide us copies of any such policies and procedures.

During our current audit, we again found unallowable, unallocable, and ineligible costs claimed
under Federal Assistance grants (see findings B and C above). In addition, cost transfers were
made without documentation of the nature and purpose of the transfer, without reference to the
original transaction (where the original documents to support the costs were stored), and without
other such information necessary to explain the need for the transfer.

A system of internal or management controls is necessary in order to ensure the accurate
recording and reporting of financial data. Inherent in a system of internal controls are procedures
to record, approve, check, and review the recording of transactions and the preparation of
financial reports. Based on the significant number of errors identified in our testing of
transactions and the reporting of financial data, we concluded that the Department lacked a
strong, reliable system of internal controls.

       Recommendations
       We recommend that the FWS require the Department to:

       1.      Institute a system of internal controls to ensure that all costs recorded and billed to
               the FWS for Federal Assistance are allowable, allocable, and eligible for
               reimbursement.

       2.      Develop policies and procedures to equitably assign fringe benefits and other
               common costs to the FWS grants and other projects in compliance with OMB
               Circular A-87, Attachment B. Part 8.d (2).

       3.      Issue policies and procedures requiring that cost transfers are properly
               documented.

       Department and FWS Responses, and OIG Comments

       The Department did not address this finding. Therefore, although the FWS concurred
       with the finding and recommendations, we consider the finding unresolved and the
       recommendation not implemented.

G. Asset Management
The September 1999 report stated that the Department’s asset management system did not
adequately account for the assets purchased with Federal funds and that the Department did not
have adequate procedures in place to safeguard its assets as required by the provisions of Title 43
CFR §§ 12.60 and 12.72, and 50 CFR § 80.18(c). The corrective action plan stated that the



                                               13
Department would develop internal controls for plant and equipment purchases, perform a
physical inventory, and assign responsibility for physical control of assets. However, the
Department Director could not provide us evidence showing that these actions had been
completed.

During our current audit, we also found that the annual property inventory lists still do not
identify assets purchased with Federal Assistance funds, other Federal funds, or non-Federal
funds. As a result, the Department could not provide assurance that property bought with
Federal Assistance funds was being used for the purposes for which it was originally acquired.

       Recommendations
       We recommend that the FWS require the Department to:

       1.     Prepare a complete listing of all of its real and personal property that includes the
              identification of the funds (i.e., Federal Assistance, other Federal, or other
              sources) used in the acquisition of each item and to whom it is assigned.

       2.     Assign responsibility for the physical control of its assets to the staff that has
              possession and need of the assets.

       3.     Perform physical inventories of the real and personal property at least once every
              2 years and use the results to update and correct any errors in the inventory
              database.

       4.     Document the system of internal controls over the acquisition, control, and
              disposal of real and personal property and require that the Department review and
              test the procedures to ensure the controls are being implemented.

       Department and FWS Responses, and OIG Comments

       The Department did not address this finding. Although the FWS concurred with the
       finding and recommendations, we consider the finding unresolved and the
       recommendations not implemented.

H. Indirect Costs
The September 1999 report stated that Samoa did not submit a certified indirect cost rate for
fiscal years 1996 and 1997 until January 8, 1998, and that Samoa used the fiscal year 1993
indirect cost rates as the basis for 1996 and 1997 FWS grant drawdowns. The report concluded
that indirect costs should not have been included in any of the drawdowns made during 1996 and
1997. The corrective action plan stated that the Department would develop policies and
procedures requiring pre-approved indirect cost rates before billing. However, the Department
Director could not provide copies of any such policies and procedures.




                                              14
During our current audit, we found that indirect costs were charged to the fiscal year 2003 grants
without an approved indirect cost rate.

       Recommendation
       We recommend that the FWS require the Department to provide its indirect cost
       negotiation agreement before it is allowed to bill and claim indirect costs.

       Department and FWS Responses, and OIG Comments

       The Department did not address this finding. Therefore, although the FWS agreed with
       the finding and recommendation, we consider the finding unresolved and the
       recommendation not implemented.

I. Other Matters

Project Cost Reporting. Our September 1999 audit report included a finding regarding project
cost reporting. The report stated that the Department’s annual performance reports did not
include comparisons of planned or budgeted costs to recorded costs by grant agreement as
required by Title 43 CFR § 12.80 and Part 522 of the Fish and Wildlife Manual. The corrective
action plan stated that the Department would include budget and actual costs and planned and
actual work in the fiscal year 1999 accomplishment reports. However, the Department Director
could not provide us any evidence that these actions had been completed.

We found that project costs could not be reported to the FWS on the annual performance reports
because the Department did not have a project cost accounting system.

Timing of Equipment Purchases. The September 1999 audit report included a finding
regarding the timing of equipment purchases. The report stated that equipment needed for the
FWS projects was unavailable for much of the grant period due partially to a slow procurement
process, which resulted from Samoa’s procurement and payment practices as well as the distant
location of American Samoa from the sources of the equipment. The corrective action plan
stated that the Department would establish a “test account” for Federal grant procurement.

However, the Department Director could not provide us any evidence that this action had been
completed. Department officials also told us that slow procurement continues to be a problem.

       Recommendations

       We recommend that the FWS require the Department to:

       1.   Include comparisons of planned or budgeted costs to recorded costs by grant
            agreement once the project cost accounting system is implemented in accordance
            with the recommendation in finding E. For example, if the grant agreement



                                              15
     provided estimated costs by grant project, then the annual report should show
     recorded costs by grant project.

2.   Develop a plan to procure necessary equipment so that, in the future, the equipment
     is available for use during the entire grant performance period.

Department and FWS Responses, and OIG Comments

The Department did not address this finding. Therefore, although the FWS concurred
with the finding and recommendations, we consider the finding unresolved and the
recommendations not implemented.




                                     16
                                                                                                      Appendix 1


                  AMERICAN SAMOA GOVERNMENT
          DEPARTMENT OF MARINE AND WILDLIFE RESOURCES
             FINANCIAL SUMMARY OF REVIEW COVERAGE

        Grant                                           Incurred               Claimed             Questioned
        Number                  Amount                    Costs                 Costs                Costs1

        F-2-R-25                     $601,170               $492,860               $492,860               $12,787

        F-2-R-26                       517,141                458,660                458,663                18,583

        F-2-R-27                       537,996                281,239                286,436                25,805

        F-4-B-6                        488,379                582,402                471,857                88,662

        F-4-B-7                         74,000                 24,329                        0                 652

        F-10-E-1                        91,516                 66,272                 67,524                 1,953

      FW-1-C-15                        161,000                161,085                161,000                17,950

      FW-1-C-16                        182,000                257,528                264,639                63,201

      FW-2-E-13                        172,667                172,663                172,667                 6,318

       W-1-R-17                        405,375                230,099                230,122                11,704

       W-1-R-18                        325,718                300,251                306,265                18,134

          Total                    $3,556,962             $3,027,388             $2,912,033              $265,749




1
 The questioned costs were for salaries, purchases, services, and travel that were either not supported, not allocable,
unnecessary, or unreasonable. See Appendix 2 for the details of questioned costs for salaries, purchases, and
services.


                                                       17
                                                                                       Appendix 2

                   SCHEDULE OF QUESTIONED
            SALARIES, PURCHASES, AND SERVICES COSTS

   GRANT    DOCUMENT
  NUMBER     NUMBER AMOUNT                                  DESCRIPTION
F-2-R-25      P14726       $6,092   Represents the portion of a $7,448 payment to a vendor for
                                    computer equipment for which the Department could not provide
                                    invoices or other supporting documentation.

              P14926        2,695   Represents a duplicate payment to a vendor for a computer.

              Subtotal     $8,787
F-2-R-26    GD20000296     $2,000   Represents a portion of the $4,800 the Department paid for
                                    employee memberships in a gym. According to the guidelines
                                    established in OMB Circular A-87, this cost was not necessary or
                                    reasonable for carrying out the purpose and objective of the grant.
              Q41198        1,265   Represents the portion of a $2,500 payment to a contractor for
                                    photocopying services for which the Department could not provide
                                    invoices or other supporting documentation.
              P18188        1,200   Represents a payment to a vendor for mooring a buoy subsequent
                                    to the grant period.
              Subtotal     $4,465
F-2-R-27      P19963       $6,900   Represents a payment to a vendor for wiring and installing air-
                                    conditioning units on the second floor of the Department’s office
                                    building. The office space is occupied by employees who charge
                                    their time to other FWS Federal Assistance grants, non-Federal
                                    Assistance grants, and locally funded programs.
             01130DP        1,251   Represents fiscal year 2003 salary costs claimed for pay periods
             01132DP                13-0 ($71), 13-2 ($851), and 13-3 ($329) that were shown in the
             01133DP                Treasury’s transaction listing reports but were not supported by the
                                    labor distribution reports.

              Subtotal     $8,151
F-4-B-6       P17052      $88,662   Represents the portion of the total cost of $149,273 for repairing
                                    and replacing parts for the floating dock in Malaloa Harbor for
                                    which the Department could not provide invoices or other
                                    supporting documentation.

              Subtotal    $88,662
FW-1-C-15      PP12-5      $2,611   Represents net fringe benefit charges of the Assistant Director.
                                    The Administrator told us that this person did not perform work
                                    on any Federal Assistance grants.

            GD 20000296     1,000   Represents a portion of the $4,800 the Department paid for
                                    employee memberships in a gym. According to the guidelines
                                    established in OMB Circular A-87, this cost was not necessary or
                                    reasonable for carrying out the purpose and objective of the grant.

              Subtotal     $3,611




                                         18
                                                                                       Appendix 2

                   SCHEDULE OF QUESTIONED
            SALARIES, PURCHASES, AND SERVICES COSTS

   GRANT    DOCUMENT
  NUMBER     NUMBER AMOUNT                                  DESCRIPTION
FW-1-C-16     P22274     $26,500   Represents the purchase of a new vehicle for which the Department
                                   could not provide an invoice or other supporting documentation.
             01041DP      17,144   Represents fiscal year 2003 salary costs for pay periods 04-1
             01042DP               ($8,400) and 04-2 ($8,744) that were shown in the Treasury’s
                                   transaction listing reports but could not be supported by the labor
                                   distribution reports.
              P19161       2,000   Represents the cost of cleaning floors in the Department’s office
                                   building. Although a share of this cost could be borne by this
                                   grant, no allocation was made to the other FWS Federal Assistance
                                   grants, to the non-FWS Federal Assistance grants, or to the locally
                                   funded programs. It is not equitable to charge the total costs to this
                                   grant.
              PP 09-0      1,746   Represents net salary ($1,052) and fringe benefit ($694) charges of
                                   the Assistant Director. The Administrator told us that this person
                                   did not perform work on any FWS Federal Assistance grants.
             Subtotal    $47,390
FW-2-E-13    Q44734        $800    Represents a portion of the $4,800 the Department paid for
                                   employee memberships in a gym. According to the guidelines
                                   established in OMB Circular A-87, this cost was not necessary or
                                   reasonable for carrying out the purpose and objective of the grant.

             Subtotal       $800
W-1-R-17     13835 001    $5,493   Represents November 2001 and January 2002 electricity charges
                                   of $2,485 and $3,008, respectively, for which the Department
                                   could not provide invoices or other supporting documentation.
                                   The Program Director told us that these costs should probably
                                   have been charged to the coordination grant.
              P17762       1,475   Represents a payment for repairs to a vehicle (MR 03). The
                                   Program Director told us that this vehicle was not assigned to or
                                   used by any of the Wildlife Division employees.

             Subtotal     $6,968

W-1-R-18     6334456      $2,981   Represents April and August 2003 communications charges of
                                   $1,510 and $1,471, respectively, for which the Department could
                                   not provide invoices or other supporting documentation. The
                                   Program Director for the Wildlife Division told us that these costs
                                   should probably have been charged to the fish and wildlife
                                   coordination grant, not the wildlife investigations grant.

              13835        2,666   Represents October and November 2002 electricity charges of
              10435                $2,424 and $242, respectively, for which the Department could not
                                   provide invoices or other supporting documentation. The Program
                                   Director for the Wildlife Division told us that these costs should
                                   probably have been charged to the fish and wildlife coordination
                                   grant.




                                        19
                                                                                      Appendix 2

                     SCHEDULE OF QUESTIONED
              SALARIES, PURCHASES, AND SERVICES COSTS

   GRANT      DOCUMENT
  NUMBER       NUMBER     AMOUNT                             DESCRIPTION
               Q55655         1,803   Represents room rental and food costs for a workshop that were
                                      improperly charged to this wildlife investigations grant. The
                                      Program Director told us that the costs should have been charged
                                      to the Statewide Wildlife grant.
               Q57570          800    Represents performance bonuses of $500 and $300 that were
               Q57575                 awarded and paid to two employees subsequent to the grant
                                      period.

               Subtotal      $8,250

GRAND TOTAL                $177,084




                                          20
                                                                              Appendix 3

                      AMERICAN SAMOA
                DIVISION OF FISH AND WILDLIFE
       STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS


 Recommendation                  Status                    Action Required
A, B.1, B.2 C.1, C.2, D,   Findings Unresolved   Provide a corrective action plan that
E, F.1, F.2, F.3, G.1,     and Recommendations   identifies the actions taken or planned to
G.2, G.3, G.4, H, I.1,     Unimplemented         resolve the findings and implement the
and I.2                                          recommendations, or the basis for any
                                                 disagreements and an alternative
                                                 solution. The plan should also include
                                                 the target date and the official
                                                 responsible for implementation of the
                                                 recommendation, or an alternative
                                                 solution. Unresolved findings and
                                                 unimplemented recommendations
                                                 remaining at the end of 90 days (after
                                                 July 1, 2005) will be referred to the
                                                 Assistant Secretary for Policy,
                                                 Management and Budget for resolution
                                                 and/or tracking of implementation.




                                          21
  Report Fraud, Waste, Abuse,
     and Mismanagement
             Fraud, waste, and abuse in government
              concerns everyone: Office of Inspector
                    General staff, Departmental
              employees, and the general public. We
                 actively solicit allegations of any
             inefficient and wasteful practices, fraud,
           and abuse related to Departmental or Insular
           Area programs and operations. You can report
                allegations to us in several ways.



By Mail:                 U.S. Department of the Interior
                         Office of Inspector General
                         Mail Stop 5341 MIB
                         1849 C Street, NW
                         Washington, D.C. 20240



By Phone:                24-Hour Toll Free          800-424-5081
                         Washington Metro Area      202-208-5300



By Fax:                  202-208-6081




By Internet:             www.oig.doi.gov
